Case 4:18-cr-00048-BMM Document 22 Filed 08/23/18 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MONTANA
GREAT FALLS DIVISION

FILED
AUG 23 2018

Clerk, U,S District Court

D,slnct Of Montana
Great Falls

UNITED STATES OF AMERICA,
Plaintiff,
vs.

CR- I S-4S-GF-BMM-JTJ
FINDINGS AND
RECOMMENDATION
CONCERNING PLEA

MICHAEL CHRISTOPHER
LAIRD,
Defendant.

The Defendant, by consent, has appeared before me under Fed. R. Crim. P.
11 and has entered a plea of guilty to one count of Possession with Intent to
Distribute Methamphetamine (Count I), as set forth in the
SUPERSEDING INFORMATION. In exchange for Defendant's plea, the United
States has agreed to dismiss the INDICTMENTS in CR-lS-39-GF-BMM and CR­
18-48-GF -BMM.
After examining the Defendant under oath, I have made the following
determinations:
1. That the Defendant is fully competent and capable of entering an
informed and voluntary plea,
2. That the Defendant is aware ofthe nature of the charge against him and
consequences of pleading guilty to the charge in Count I of the Superseding

Case 4:18-cr-00048-BMM Document 22 Filed 08/23/18 Page 2 of 2

Information,
3. That the Defendant fully understands his constitutional rights, and the
extent to which he is waiving those rights by pleading guilty, and
4. That the plea of guilty is a knowing and voluntary plea, supported by an
independent basis in fact sufficient to prove each of the essential elements of the
count charged in Count I of the Superseding Information.
The Court further concludes that the Defendant had adequate time to review
the Plea Agreement with counsel, that he fully understands each and every
provision of the agreement and that all of the statements in the Plea Agreement are
true. Therefore, I recommend that the Defendant be adjudged guilty of Count I of
the SUPERSEDING INFORMATION, and that sentence be imposed. I further
recommend that the INDICTMENTS in CR-18-39-GF-BMM and
CR-18-48-GF-BMM be dismissed.

This report is forwarded with the recommendation that the Court defer

a decision regarding acceptance until the Court has reviewed the Plea
Agreement and the presentence report.
DATED this 23rd day of August, 2018.

~'!::::,,--=----United States Magistrate Judge

